TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                          Cost-Reimbursement Contracts
                         Did Not Fully Comply With Federal
                         Acquisition Regulation Revisions



                                           April 30, 2013

                              Reference Number: 2013-10-046




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.treasury.gov/tigta
                                                 HIGHLIGHTS


COST-REIMBURSEMENT CONTRACTS                         addressing the revised regulations associated
DID NOT FULLY COMPLY WITH                            with planning for and awarding
FEDERAL ACQUISITION REGULATION                       cost-reimbursement contracts. As a result, IRS
REVISIONS                                            contracting officers were not aware of the new
                                                     requirements.

Highlights                                           For the 46 cost-reimbursement contracts
                                                     awarded to the IRS’s Federally Funded
                                                     Research and Development contractor, the IRS
Final Report issued on April 30, 2013
                                                     was noncompliant with nearly all of the FAR
                                                     revisions. In IRS management’s opinion, there
Highlights of Reference Number: 2013-10-046
                                                     was no need to follow requirements for awards
to the Internal Revenue Service Deputy
                                                     to the contractor because of the unique
Commissioner for Operations Support.
                                                     relationship between the IRS and the contractor.
IMPACT ON TAXPAYERS                                  TIGTA found no justification for this opinion in
                                                     acquisition regulations. Further, the IRS did not
On October 14, 2008, Congress passed the             document the adequacy of contractor
Duncan Hunter National Defense Authorization         accounting systems prior to the award of
Act for Fiscal Year 2009 (hereafter referred to as   cost-reimbursement contracts in the majority of
the Act), in part, to address the use of high-risk   contracts reviewed.
contracts awarded throughout the Federal
Government. The IRS generally did not                Finally, the IRS's Office of Procurement staff
comply with the Act and related Federal              improperly coded three contracts as
Acquisition Regulation (FAR) revisions for           cost-reimbursement contracts within the Federal
cost-reimbursement contracts that TIGTA              Procurement Data System–Next Generation.
reviewed. Consequently, this noncompliance           WHAT TIGTA RECOMMENDED
increases the risk of inefficiency and waste by
the IRS.                                             TIGTA recommended that the IRS establish and
                                                     implement procurement policies and procedures
WHY TIGTA DID THE AUDIT                              that are in compliance with the Act and related
This audit was initiated because provisions of       FAR revisions, establish oversight procedures to
the Act mandated that Federal Offices of             ensure that future cost-reimbursement contracts
Inspectors General determine agency                  comply with regulations, and review contracts
compliance with new regulatory requirements.         issued during the audit period to ensure that
In addition, adequate planning and management        they were properly coded in the IRS and Federal
of cost-reimbursement contracts is imperative        Procurement Data systems.
given that these high-risk contracts provide few     In its response, the IRS agreed with the
incentives for contractors to control costs.         recommendations and plans to develop and
WHAT TIGTA FOUND                                     update policies and procedures to reflect the
                                                     new FAR requirements and plans to provide
The IRS did not comply with the majority of          related training to procurement staff. In addition,
the new FAR requirements for 46 of the               the IRS plans to implement oversight processes
49 cost-reimbursement contracts entered into         to ensure that FAR regulations are followed.
between March 17, 2011, and June 30, 2012,           Finally, the IRS agreed to review the IRS and
totaling nearly $47 million. Specifically, the IRS   Federal Procurement Data systems to ensure
did not always document required information to      that contracts are properly categorized and
justify the selection of cost-reimbursement          coded.
contracts and did not always assign acquisition
workforce resources prior to award to manage
these contracts. This occurred, in part, because
the IRS did not develop any specific
procurement policies and procedures
                                                  DEPARTMENT OF THE TREASURY
                                                       WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                   April 30, 2013


 MEMORANDUM FOR DEPUTY COMMISSIONER FOR OPERATIONS SUPPORT


 FROM:                          Michael E. McKenney
                                Acting Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Cost-Reimbursement Contracts Did Not Fully
                                Comply With Federal Acquisition Regulation Revisions
                                (Audit # 201210027)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) was in compliance with the Duncan Hunter National Defense Authorization Act for Fiscal
 Year 20091 and the related revisions to the Federal Acquisition Regulation. This review was
 conducted as part of the Treasury Inspector General for Tax Administration’s Fiscal Year 2013
 Annual Audit Plan and addresses the major management challenge of Achieving Program
 Efficiencies and Cost Savings.
 Management’s complete response to the draft report is included as Appendix V.
 Copies of this report are also being sent to the IRS managers affected by the report
 recommendations. If you have any questions, please contact me or Gregory D. Kutz, Assistant
 Inspector General for Audit (Management Services and Exempt Organizations).




 1
     Public Law 110-417, 122 Stat. 4549 (Oct. 2008).
                                Cost-Reimbursement Contracts Did Not Fully Comply
                                   With Federal Acquisition Regulation Revisions




                                              Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 4
          The Internal Revenue Service Did Not Issue Guidance on Recent
          Federal Acquisition Regulation Revisions for Cost-Reimbursement
          Contracts ....................................................................................................... Page 4
                    Recommendation 1:........................................................ Page 5

          Contracts Did Not Comply With New Federal Acquisition Regulation
          Requirements for Cost-Reimbursement Contracts ....................................... Page 5
                    Recommendations 2 and 3: .............................................. Page 10

          The Contract Type Was Miscoded in the Federal Procurement
          Data System .................................................................................................. Page 10
                    Recommendation 4:........................................................ Page 11


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 14
          Appendix III – Report Distribution List ....................................................... Page 15
          Appendix IV – Outcome Measures............................................................... Page 16
          Appendix V – Management’s Response to the Draft Report ....................... Page 18
          Cost-Reimbursement Contracts Did Not Fully Comply
             With Federal Acquisition Regulation Revisions




                    Abbreviations

CO            Contracting Officer
COR           Contracting Officer’s Representative
DCAA          Defense Contract Audit Agency
FAR           Federal Acquisition Regulation
FFRDC         Federally Funded Research and Development Center
FPDS-NG       Federal Procurement Data System–Next Generation
IRS           Internal Revenue Service
                           Cost-Reimbursement Contracts Did Not Fully Comply
                              With Federal Acquisition Regulation Revisions




                                             Background

Each year the Internal Revenue Service (IRS) awards more than $1 billion to contractors using a
variety of contract types. Between March 17, 2011, and June 30 2012, the IRS awarded
approximately $47 million in cost-reimbursement contracts. Certain contract types, such as
cost-reimbursement contracts, pose risks of inefficiency and waste to the Federal Government
because they provide no direct incentive for contractors to control costs. Under
cost-reimbursement contracts, contractors are paid based on the incurrence of allowable costs, as
opposed to the delivery of a completed product or service. This type of contract is used when an
agency is unable to define its requirements sufficiently to allow for a fixed-price contract,1 such
as contracts for research and development or complex projects for which the costs of
performance cannot be reasonably estimated with a high degree of accuracy.
As the Federal Government faces pressure to reduce spending, efforts to reform Government
contracting have intensified. To address these concerns, both Congress and the Administration2
have strengthened controls over the use and management of other than fixed-price contracts. On
October 14, 2008, Congress passed the Duncan Hunter National Defense Authorization Act for
Fiscal Year 20093 (hereafter referred to as the Act), in part, to address the use of high-risk
contracts awarded throughout the Federal Government. Section 864 of the Act required the
Federal Acquisition Regulation (FAR)4 be revised to address the use and management of
cost-reimbursement contracts.5 As mandated by Section 864, an interim rule, Proper Use and
Management of Cost-Reimbursement Contracts,6 was published on March 16, 2011, outlining the
FAR changes.
The Act required that the FAR be revised to include guidance regarding the development and
documentation of acquisition plans to justify and support use of a cost-reimbursement contract,
compliance with additional contracting officer (CO) and contracting officer’s representative




1
  Fixed-price contracts provide the contractor a set payment for achieving a specific set of deliverables.
2
  President Obama issued a Presidential Memorandum on Government Contracting on March 4, 2009, directing
agencies to become more fiscally responsible in their contract actions and cut contract costs. Additionally, in
July 2011, the Office of Management and Budget directed agencies to reduce the use of high-risk contracts.
3
  Public Law 110-417, 122 Stat. 4549 (Oct. 2008).
4
  48 C.F.R. Chapter 1 (2011); the FAR is the primary regulation used by Federal agencies to purchase supplies and
services.
5
  For purposes of this audit, we refer to newly issued contracts and task/delivery orders (an order for supplies or
services placed against an established contract) as contracts. Both newly issued contracts and newly issued
task/delivery orders are subject to requirements of the Act subsequent to the implementation of FAR changes.
6
  FAR Case 2008-030.
                                                                                                             Page 1
                            Cost-Reimbursement Contracts Did Not Fully Comply
                               With Federal Acquisition Regulation Revisions



(COR) responsibilities,7 and the determination of the adequacy of accounting systems throughout
the contract period. In the area of acquisition planning, some of the new requirements included
that plans must document why a cost-reimbursement contract type was selected, the additional
risks involved, how the Government would manage the risks, and resources available to mitigate
risks. In addition, the FAR revisions required acquisition plans to be approved by someone at
least one level above the CO. In the area of CO and COR responsibilities, the FAR revisions
required that a COR be appointed prior to award of the contract and that the COR possess the
appropriate level of training and experience necessary to administer the cost-reimbursement
contract. Finally, in the area of contractor accounting systems, the FAR revisions required that
agencies ensure that the contractor’s accounting system is adequate, as determined by the
Defense Contract Audit Agency (DCAA),8 prior to award and during the life of the contract in
order to ensure that cost data provided by the contractor are accurate. The Act also required each
agency’s Inspector General to determine the agency’s compliance with the new requirements.
We reviewed the IRS’s compliance with the FAR revisions to address a congressional mandate
in the Act. To accomplish our objective, we reviewed all 52 cost-reimbursement contracts
awarded by the IRS from March 17, 2011, to June 30, 2012. Several contracts related to the
provision of system maintenance on the IRS’s Integrated Financial System,9 development of the
Customer Account Data Engine 2,10 and development of the Patient Protection and Affordable
Care Act11 data repository and totaled approximately $12 million in contract awards. Forty-six
cost-reimbursement contracts we reviewed were indefinite delivery, indefinite quantity12
contracts awarded to the IRS’s contractor for its Federally Funded Research and Development




7
  Within the Federal acquisition area, the COs have the authority to enter into, administer, or terminate contracts and
make related determinations and findings. The COs are responsible for ensuring performance of all necessary
actions for effective contracting, ensuring compliance with the terms and conditions of the contract, and
safeguarding the interest of the United States in its contractual relationships. The CORs assist in the technical
monitoring or administration of a contract and maintain a file for each assigned contract.
8
  The DCAA performs all necessary contract audits for the Department of Defense. The DCAA also provides
contract audit services to other Federal agencies as appropriate.
9
  The Integrated Financial System is the financial management system for the administrative activities in the IRS. It
also provides financial statements and reports in accordance with the Federal accounting and reporting standards
including information for budgeting, analysis, and Governmentwide reporting.
10
   The Customer Account Data Engine 2 is a single relational database designed to house all individual taxpayer
accounts in a central data source.
11
   P.L. 111-148. (Mar. 2010).
12
   Indefinite delivery, indefinite quantity contracts are a type of contract that provides for an indefinite quantity of
supplies or services during a fixed period of time.
                                                                                                                Page 2
                           Cost-Reimbursement Contracts Did Not Fully Comply
                              With Federal Acquisition Regulation Revisions



Center (FFRDC).13 Those 46 contracts were used in support of the IRS’s systems modernization
efforts and totaled approximately $35 million.
During our review, it was determined that three contracts, totaling approximately $2.6 million,
were miscoded by the IRS within the Federal Procurement Data System–Next Generation
(FPDS-NG)14 and were not cost-reimbursement contracts.15 Thus, the scope of our review was
limited due to data reliability issues related to the IRS’s miscoding of contract types in the
FPDS-NG. We did not attempt to determine if any contracts originally coded as fixed-price
contracts or another contract type should have been categorized as a cost-reimbursement contract
due to the volume of contracts awarded by the IRS during our audit period.
This review was performed at the Office of Procurement, Agency-Wide Shared Services, in
Oxon Hill, Maryland, during the period August 2012 through January 2013. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




13
   The FFRDC is an entity sponsored by Government agencies for the purpose of performing, analyzing, integrating,
supporting, or managing basic research that receives 70 percent or more of its financial support from the
Government. The IRS is currently conducting a multiyear, multibillion dollar effort to update its core business
systems. To facilitate the modernization effort, the IRS hired an FFRDC contractor to provide strategic, technical,
and program management advice, guidance, and support services.
14
   The FPDS-NG is a web-based electronic database system that is used to collect and report on Federal procurement
spending.
15
   A total of 52 cost-reimbursement contracts were originally identified by the IRS as falling within the scope of our
cost-reimbursement contract audit. Three of those contracts were subsequently determined not to be
cost-reimbursement contracts by the IRS when we requested supporting documentation. The remaining 49 contracts
were reviewed for compliance with revisions made to the FAR. Of the 49 contracts reviewed, 46 related to FFRDC
contract awards.
                                                                                                             Page 3
                            Cost-Reimbursement Contracts Did Not Fully Comply
                               With Federal Acquisition Regulation Revisions




                                       Results of Review

The Internal Revenue Service Did Not Issue Guidance on Recent
Federal Acquisition Regulation Revisions for Cost-Reimbursement
Contracts
The IRS did not issue internal procurement policy guidance to implement the FAR revisions that
were required by the Act. Although the revised FAR became effective on March 17, 2011, the
IRS has not issued any procurement policies and procedures to implement recent FAR changes
for cost-reimbursement contracts. Instead, the IRS has used the prior FAR and its existing
internal procurement policies and procedures to guide its COs, CORs, and program management
staff in the conduct of their acquisition planning, award, and management of cost-reimbursement
contracts. For example, IRS policies and procedures for acquisition plans16 fail to address new
FAR requirements associated with approval of the acquisition plan by management personnel at
least one level above the CO, justifications to support the use of cost-reimbursement contracts,
and designation of a COR prior to contract award.
The Office of Procurement stated that its reason for not issuing new internal procurement
policies and procedures related to cost-reimbursement contracts was due to its belief that the new
requirements were so clearly presented in the FAR that there was no need to issue internal IRS
guidance. The Office of Procurement also stated that there were standard operating procedures
for certain information technology contracts which provided guidance on acquisition planning
and the appointment of CORs and alternate CORs. However, we determined that those
procedures also did not comply with major parts of recent FAR revisions for cost-reimbursement
contracts. For example, because no guidance had been provided, the COs who we interviewed
were not aware of revisions to the FAR required by the Act as they related to documentation
requirements in the contract file. One CO stated there was no communication from the Office of
Procurement regarding any FAR revisions on the subject of cost-reimbursement contract
documentation requirements. The lack of guidance by the IRS to implement FAR revisions
increases the chances that high-risk, cost-reimbursement contracts may experience problems,
resulting in higher costs to the Government.




16
     Policy and Procedures Memorandum No. 7.1 (Jan. 1, 2010).
                                                                                           Page 4
                       Cost-Reimbursement Contracts Did Not Fully Comply
                          With Federal Acquisition Regulation Revisions



Recommendation
Recommendation 1: The Chief, Agency-Wide Shared Services, should establish and
implement policies and procedures that are in compliance with recent FAR revisions associated
with the Act.
       Management’s Response: The IRS agreed with this recommendation and stated it
       has drafted and is circulating updated policies and procedures for approval that address
       the recent FAR revisions associated with Section 864 of the Act.

Contracts Did Not Comply With New Federal Acquisition Regulation
Requirements for Cost-Reimbursement Contracts
None of the cost-reimbursement contracts that the IRS entered into between March 17, 2011, and
June 30, 2012, fully complied with provisions of the Act and related FAR revisions in the areas
of acquisition planning, CO and COR responsibilities, and adequacy of contractor accounting
systems. Three contracts provided system maintenance on the IRS’s Integrated Financial System
and supported the development of the Customer Account Data Engine 2 and the Patient
Protection and Affordable Care Act data repository. These three contracts totaled approximately
$12 million in contract awards. The remaining 46 cost-reimbursement contracts were indefinite
delivery, indefinite quantity contracts awarded to the IRS’s contractor for its FFRDC. Those
46 contracts were used in support of IRS’s systems modernization efforts and totaled
approximately $35 million.

Acquisition planning
The acquisition plans for all of the 49 contracts we reviewed did not address at least one of the
sections of the FAR related to acquisition planning for cost-reimbursement contracts. Figure 1
provides the details on compliance with acquisition planning requirements.




                                                                                            Page 5
                          Cost-Reimbursement Contracts Did Not Fully Comply
                             With Federal Acquisition Regulation Revisions



                         Figure 1: Acquisition Planning Requirements
                                                            Contract Compliance With Regulations
                                                                           4 Through 49
      Federal Acquisition Regulations                 1       2       3      (FFRDC)          Total

Acquisition plans should explain why the
                                                                                                2 of 49
contract type selected must be used to meet          Fail    Pass     Pass          Fail
                                                                                                Passed
the agency need.
Acquisition plans should discuss the
                                                                                                1 of 49
Government’s additional risks and the burden         Fail    Fail     Pass          Fail
                                                                                                Passed
to manage the contract type selected.
Acquisition plans should discuss how the                                                        0 of 49
                                                     Fail    Fail     Fail          Fail
Government identified the additional risks.                                                     Passed
Acquisition plans should discuss the nature of                                                  2 of 49
                                                     Pass    Fail     Pass          Fail
the additional risks.                                                                           Passed
Acquisition plans should discuss Government                                                     1 of 49
                                                     Fail    Pass     Fail          Fail
plans to manage and mitigate the risks.                                                         Passed
Acquisition plans should discuss the
Government resources necessary to properly                                                      2 of 49
                                                     Pass    Fail     Pass          Fail
plan for, award, and administer the contract                                                    Passed
type selected.
Acquisition plans should provide a rationale
that details the particular facts and                                                           2 of 49
                                                     Fail    Pass     Pass          Fail
circumstances and associated reasoning                                                          Passed
essential to support the contract type selection.
Acquisition plans should include a discussion
of the actions planned to minimize the use of                                                   1 of 49
                                                     Fail    Pass     Fail          Fail
other than fixed-price contracts on future                                                      Passed
acquisitions.
Acquisition plans should include a discussion
of why a level-of-effort, price                                                                 1 of 49
                                                     Fail    Fail     Pass          Fail
redetermination, or fee provision was                                                           Passed
included.
For acquisition plans for other than fixed-price
contracts, obtain an approval and signature                                                     1 of 49
                                                     Fail    Fail     Pass          Fail
from the appropriate acquisition official at                                                    Passed
least one level above the CO.
Source: Our review of IRS Office of Procurement, Agency-Wide Shared Services, contract files.

                                                                                                   Page 6
                            Cost-Reimbursement Contracts Did Not Fully Comply
                               With Federal Acquisition Regulation Revisions



In the three non-FFRDC cost-reimbursement contracts awarded totaling approximately
$12 million, we found that the IRS partially complied with the revisions to the FAR regarding
acquisition planning. We found instances where the IRS appropriately documented in the
acquisition plan key facts required by the FAR, such as the rationale for the use of a
cost-reimbursement contract and the approval of the acquisition plan by an IRS official one level
above the CO. However, in other cases, we found the intent of FAR revisions was addressed in
other parts of the contract file but was not contained in the acquisition plan as required by the
FAR. For example, in one file, an explanation of why a cost-reimbursement contract type was
necessary was located in the Determination and Finding section of the contract file and not in the
acquisition plan as required by the FAR revision. We found some requirements were addressed
elsewhere in contract files, suggesting that the IRS could have complied with new FAR
requirements, in some cases, by changing where key decisions and discussions are documented.
Finally, we found some instances where FAR requirements were not addressed in any section of
the contract file. For example, we found that one file failed to justify why a cost-reimbursement
contract type was needed for the acquisition.
Our review found the 46 cost-reimbursement contracts awarded to the FFRDC, totaling
approximately $35 million, did not comply with any of the acquisition planning provisions of the
Act and related FAR revisions. When asked about the noncompliance with FAR requirements
for FFRDC contracts, Office of Procurement management stated it was the IRS’s opinion that
there was no need to follow the FAR requirements for FFRDC contracts because contracts
awarded to the FFRDC were not subject to normal processes. IRS management further stated
that because the intent of the FFRDC is to have a long-term relationship with the IRS and
because the FFRDC employees are integrated seamlessly with IRS employees, the need for usual
acquisition planning was unnecessary.17 Upon reviewing the applicable provisions of the FAR,
we found no evidence that FFRDC contracts in general are exempt from the revisions required
by the Act. Our review found that Part 35 of the FAR specifically addresses the FFRDCs, and
we determined that it does not include an exemption to the new requirements for
cost-reimbursement contracts. FAR revisions were designed to ensure that adequate planning is
performed on all cost-reimbursement contracts, including FFRDC contracts, to ensure that risks
associated with cost-reimbursement contracts are considered and mitigated.

CO and COR responsibilities
At least one of the provisions of the FAR related to the designation of a COR for
cost-reimbursement contracts was not adhered to in all 49 contracts we reviewed. Figure 2
provides details on compliance with new CO and COR responsibility revisions to the FAR.




17
     The establishment of the FFRDC contract we reviewed began in 1998.
                                                                                           Page 7
                          Cost-Reimbursement Contracts Did Not Fully Comply
                             With Federal Acquisition Regulation Revisions



                                Figure 2: CO/COR Responsibilities
                                                               Contract Compliance With Regulations
                                                                                 4 Through 49
        Federal Acquisition Regulations                  1        2       3        (FFRDC)      Total
The COR shall be certified and maintain
certification in accordance with the current
                                                                                                1 of 49
Office of Management and Budget memorandum              Fail     Fail   Pass          Fail
                                                                                                Passed
on the Federal Acquisition Certification for
Contracting Officer Representatives guidance.
The COR appointment letter shall state the                                                      2 of 49
                                                        Fail     Pass   Pass          Fail
authority is not redelegable.                                                                   Passed
The COR appointment letter shall state that the
                                                                                                2 of 49
COR may be personally liable for unauthorized           Fail     Pass   Pass          Fail
                                                                                                Passed
acts.
Copies of the COR appointment letter will be
                                                                                                1 of 49
furnished to the contractor and the contract            Pass     Fail   Fail          Fail
                                                                                                Passed
administration office.
Acquisition planning should include the
                                                                                                0 of 49
designation of at least one COR prior to award of       Fail     Fail   Fail          Fail
                                                                                                Passed
the contract.
The acquisition planner shall ensure that a COR
is nominated by the requirements official as early
                                                                                                1 of 49
as practicable in the acquisition process. The CO       Pass     Fail   Fail          Fail
                                                                                                Passed
shall designate and authorize a COR as early as
practicable after the nomination.
Source: Our review of IRS Office of Procurement, Agency-Wide Shared Services, contract files.

Appointment of a properly trained COR possessing the necessary experience prior to award is
key to ensuring that risks associated with cost-reimbursement contracts are mitigated. The COR
helps monitor the technical aspects of the contract and assists with contract administration.
FAR 16.301-3(a)(4)(i) states that cost-reimbursement contracts may only be used when the COR,
in accordance with FAR 1.602-2, is designated prior to award of the contract or order.
FAR 1.602-2(d)(6) requires that the designation be in writing and that it specify the COR’s
responsibilities, authorities, and limitations. FAR 1.602-2(d)(6) states that a copy of this written
designation must be provided to the contractor. In addition, the Office of Federal Procurement
Policy has prescribed specific levels of experience and training for the CORs in order for them to
be adequately prepared to assist in the administration of cost-reimbursement contracts. The three
non-FFRDC cost-reimbursement contract files reviewed complied with some of the FAR
revisions and failed to comply with others in the area of CO and COR responsibilities. Our

                                                                                                  Page 8
                          Cost-Reimbursement Contracts Did Not Fully Comply
                             With Federal Acquisition Regulation Revisions



review of the 46 cost-reimbursement contracts awarded to the IRS’s FFRDC found that the IRS
did not document appointment of a COR prior to award in any of the contract files.

Adequacy of contractor accounting systems
In 36 of the 49 contracts reviewed, we found evidence that the contractors may not have had
accounting systems that adequately tracked their costs during the entire period of performance as
required by FAR 42.302(a)(12). Government contractors are subject to Cost Accounting
Standards by which contractors must estimate and report costs. Agency COs are responsible for
ensuring that the DCAA has validated a contractor’s accounting systems and found their system
in compliance with Cost Accounting Standards.18 The FAR revisions state that agencies may
only use cost-reimbursement contracts when the contractors accounting system is adequate for
determining costs. The FAR also requires the COs to ensure that contractor accounting systems
remain adequate during the entire period of performance for the contract. The adequacy of the
contractor’s accounting and internal control system, and compliance with Cost Accounting
Standards, affect the quality and validity of the contractor data which the Government must rely
on for its management oversight of the contractor and contract performance. Figure 3 provides
details on the IRS’s compliance with new FAR requirements associated with contractor
accounting systems.
         Figure 3: Adequacy of Contractor Accounting System Requirements
                                                            Contract Compliance With Regulations
                                                                                4 Through 49
      Federal Acquisition Regulations                 1        2       3          (FFRDC)               Total
A cost-reimbursement contract may be used
only when the contractor’s accounting                                                                 13 of 49
                                                    Fail     Fail     Pass      Pass 12 of 46
system is adequate for determining costs                                                               Passed
applicable to the contract or order.
The COs must determine the continuing
adequacy of the contractor’s accounting                                                               13 of 49
                                                    Fail     Fail     Pass      Pass 12 of 46
system prior to award and during the entire                                                            Passed
period of contract performance.
Source: Our review of IRS contract files.
In the two non-FFRDC contracts failing this requirement, contract file documents disclosed that
the COR had obtained a DCAA report that found the contractor’s accounting system was
compliant as of December 2005. However, another document in the contract file showed that the


18
  The adequacy of a contractor’s accounting system affects the quality and validity of the data the Government
relies on for management oversight. This is especially important for cost-reimbursement contracts where the IRS
pays the contractor directly based on charges generated from the accounting system.
                                                                                                          Page 9
                           Cost-Reimbursement Contracts Did Not Fully Comply
                              With Federal Acquisition Regulation Revisions



DCAA issued a report in 2009 that found the contractor’s current accounting system to be
inadequate. In this 2009 audit report, the DCAA opined that the internal control activities related
to management reviews, policies and procedures, and implementation of policies and procedures
were not adequate and were not operating effectively. The DCAA examination disclosed
significant deficiencies that may affect the organization’s ability to record, process, summarize,
and report billings in a manner consistent with applicable Federal Government contract laws and
regulations. The two contracts totaled $3.6 million.19 In addition, we found that only
12 (26 percent) of the 46 FFRDC contracts that we reviewed were supported by contractor
accounting system compliance documentation from the DCAA. The remaining 34 FFRDC
contract files did not contain documentation of the DCAA-reviewed accounting systems.

Recommendations
Recommendation 2: The Chief, Agency-Wide Shared Services, should establish an oversight
process to ensure that the new IRS policies and procedures (Recommendation 1) are
satisfactorily implemented and that future cost-reimbursement contracts, including FFRDC
contracts, and supporting contract files are in full compliance with current FAR requirements.
        Management’s Response: The IRS agreed with this recommendation and stated the
        Chief, Agency-Wide Shared Services, would establish an oversight process to ensure that
        the new IRS policies and procedures are satisfactorily implemented and that future
        cost-reimbursement contracts, including FFRDC contracts, are in full compliance with
        current FAR requirements.
Recommendation 3: The Deputy Commissioner for Operations Support should provide all
acquisition workforce personnel (COs, CORs, technical points of contact, etc.) and appropriate
program management staff with training on recent FAR revisions resulting from the Act.
        Management’s Response: The IRS agreed with this recommendation and stated it
        would provide training on recent FAR revisions resulting from the Act to those
        acquisition personnel involved in the award and administration of cost-reimbursement
        contracts.

The Contract Type Was Miscoded in the Federal Procurement Data
System
The IRS provided us with a list of all 52 cost-reimbursement contracts awarded from
March 17, 2011, through June 30, 2012. In March 2007, the Office of Federal Procurement


19
  In June 2012, the DCAA issued a report stating that the contractor had resolved deficiencies in its accounting
system. However, this report would not have been available to the CO at the time of the award for the two contracts
reviewed.
                                                                                                          Page 10
                      Cost-Reimbursement Contracts Did Not Fully Comply
                         With Federal Acquisition Regulation Revisions



Policy issued a memorandum that tasked all agency Chief Acquisition Officers with establishing
processes to ensure that FPDS-NG data are accurate. During our review, we determined that
three of the contracts in our population, totaling approximately $2.6 million, were improperly
coded as cost-reimbursement contracts and should have been correctly coded as fixed-price
contracts. In discussion with IRS management, they stated that all three were coding errors and
corrections to the FPDS-NG would be performed. We subsequently received documentation
from the IRS showing that corrections had been made in the FPDS-NG. When contracts are
miscoded, the IRS does not have accurate data on the type of contracts it awards. Complete,
accurate, and timely Federal procurement data are essential for ensuring that the Government has
the right information when planning, awarding, and performing oversight on Federal contracts.

Recommendation
Recommendation 4: The Chief, Agency-Wide Shared Services, should review contracts (and
related task/delivery orders) awarded since implementation of new FAR requirements on
March 17, 2011, to ensure that contracts are properly coded and categorized in IRS and Federal
Procurement Data systems.
       Management’s Response: The IRS agreed with this recommendation to review
       contract data entered into the IRS and Federal Procurement Data systems. However, the
       IRS believes that the period of review should start as of April 2, 2012, when the FAR
       implementation of Section 864 of the Act became effective.
       Office of Audit Comment: We agree with the IRS that the period of review should
       start as of April 2, 2012, when the FAR implementation of Section 864 of the Act became
       effective.




                                                                                        Page 11
                        Cost-Reimbursement Contracts Did Not Fully Comply
                           With Federal Acquisition Regulation Revisions



                                                                                         Appendix I

         Detailed Objective, Scope, and Methodology

The overall objective of this audit was to determine whether the IRS was in compliance with the
Duncan Hunter National Defense Authorization Act for Fiscal Year 20091 (hereafter referred to
as the Act) and the related revisions to the FAR2 in appropriately justifying and planning for the
use of cost-reimbursement contracts. To accomplish our objective, we:
I.      Obtained an understanding of the process the IRS uses to select the contract type and
        identified potential risks and related management controls.
        A. Researched the FAR (Section 1, subparts 16, 7, and 42), Department of Treasury
           regulations, and IRS procurement policies and procedures regarding the selection of
           contract types and documented an understanding of the selection process.
        B. Documented the risks regarding the process of the contract type selection and
           identified the controls to mitigate the risks identified.
        C. Interviewed the Office of Procurement contracting personnel and program office staff
           to document the current process and practices used to develop the justification of
           contract type when cost-reimbursement procurement is being considered.
        D. Determined if the IRS had issued guidance pertaining to cost-reimbursement contract
           FAR revisions that were required by the Act.
II.     Through a review of contracts, determined whether the IRS complied with recent FAR
        revisions associated with cost-reimbursement contract acquisition planning and awards.
        A. Reviewed all cost-reimbursement contracts (and related task/delivery orders) awarded
           from March 17, 2011, through June 30, 2012. We assessed the reliability of the
           FPDS-NG computer-processed data and determined that the data were sufficiently
           reliable to use for our audit tests. We examined contract data fields such as
           Procurement Instrument Identifier, type of contract, vendor name, and product or
           service description.
        B. Reviewed contracts to determine whether the contract files contain required
           documentation associated with recent FAR revisions for cost-reimbursement
           contracts.


1
 Public Law 110-417, 122 Stat. 4549 (Oct. 2008).
2
 Interim rule FAR Case 2008-030, Proper Use and Management of Cost-Reimbursement Contracts
(Mar. 16, 2011).
                                                                                             Page 12
                      Cost-Reimbursement Contracts Did Not Fully Comply
                         With Federal Acquisition Regulation Revisions



       C. If contract files reviewed did not contain required documentation, followed up with
          relevant procurement officials, including the COs and the CORs, to determine why
          FAR requirements were not followed.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the IRS’s policies, procedures, and
management controls to ensure that cost-reimbursement contracts comply with FAR
requirements. We evaluated these internal controls by: 1) interviewing key personnel within the
Office of Procurement, Agency-Wide Shared Services; 2) reviewing the IRS policies and
procedures; 3) reviewing the FAR (Section 1, subparts 16, 7, and 42) and the Department of the
Treasury regulations; and 4) reviewing 52 cost-reimbursement contracts and their supporting
contract file documentation to determine compliance with the Act.




                                                                                       Page 13
                     Cost-Reimbursement Contracts Did Not Fully Comply
                        With Federal Acquisition Regulation Revisions



                                                                              Appendix II

                 Major Contributors to This Report

Gregory D. Kutz, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Russell P. Martin, Acting Assistant Inspector General for Audit (Management Services and
Exempt Organizations)
Alicia P. Mrozowski, Director
Jonathan T. Meyer, Audit Manager
Gene A. Luevano, Lead Auditor
David Bueter, Auditor
Melvin Lindsey, Auditor




                                                                                     Page 14
                     Cost-Reimbursement Contracts Did Not Fully Comply
                        With Federal Acquisition Regulation Revisions



                                                                 Appendix III

                         Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Agency-Wide Shared Services OS:A
Director, Procurement OS:A:P
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Agency-Wide Shared Services OA:S
       Director, Procurement OS:A:P




                                                                         Page 15
                         Cost-Reimbursement Contracts Did Not Fully Comply
                            With Federal Acquisition Regulation Revisions



                                                                                          Appendix IV

                                  Outcome Measures

This appendix presents detailed information on the measurable impacts that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
   Protection of Resources – Potential; $3,600,000 in two contracts awarded to an ineligible
    contractor (see page 5).

Methodology Used to Measure the Reported Benefit:
The IRS provided us with a population of 52 cost-reimbursement contracts that were awarded
from March 17, 2011, through June 30, 2012. During our review, we found that two contracts,
associated with one contractor, failed to comply with FAR requirements on contractor
accounting systems. Specifically, in order to adequately protect Government resources, FAR
requirements state that cost-reimbursement contracts should only be awarded to contractors with
adequate accounting systems. We found the DCAA,1 the agency responsible for determining
contractor accounting system adequacy, issued a report in 2009 that found the contractor’s
current accounting system to be inadequate. In the 2009 audit report, the DCAA opined that the
internal control activities related to management reviews, policies and procedures, and
implementation of policies and procedures were not adequate and were not operating effectively.
The DCAA examination disclosed significant deficiencies that may affect the organization’s
ability to record, process, summarize, and report billings in a manner consistent with applicable
Federal Government contract laws and regulations. Those two contracts totaled $3.6 million.
We found that in June 2012, the DCAA issued a report stating that the contractor had resolved
deficiencies in its accounting system. However, this report would not have been available to the
CO at the time of the award of the two contracts reviewed and was not part of the contract file.




1
 The DCAA performs all required contract audits for the Department of Defense. The DCAA also provides
contract audit services to other Federal agencies as appropriate.
                                                                                                    Page 16
                       Cost-Reimbursement Contracts Did Not Fully Comply
                          With Federal Acquisition Regulation Revisions



Type and Value of Outcome Measure:
   Reliability of Information – Actual; $2,596,033 in three contracts for which the contract type
    was improperly coded (see page 10).

Methodology Used to Measure the Reported Benefit:
The IRS provided us with a universe of 52 cost-reimbursement contracts that were awarded from
March 17, 2011, through June 30, 2012. During our review, the IRS determined that three of the
contracts were improperly coded as cost-reimbursement contracts, rather than being correctly
coded as fixed-price contracts. In discussion with IRS management, they stated that all three
were coding errors and corrections in the FPDS-NG would be forthcoming. The total amount of
the three miscoded contracts was $2,596,033.




                                                                                          Page 17
       Cost-Reimbursement Contracts Did Not Fully Comply
          With Federal Acquisition Regulation Revisions



                                                  Appendix V

Management’s Response to the Draft Report




                                                           Page 18
Cost-Reimbursement Contracts Did Not Fully Comply
   With Federal Acquisition Regulation Revisions




                                                    Page 19
Cost-Reimbursement Contracts Did Not Fully Comply
   With Federal Acquisition Regulation Revisions




                                                    Page 20
